W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

20-1123

Lenwood Hamilton

Lester Speight, et al.
V.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
Lester Speight, Microsoft, Inc., Microsoft Studios and The Coalition

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Elizabeth A. McNamara

Date:

2/26/21

(Type or print) Name

Digitally signed by: Elizabeth A. McNamara
DN: CN = Elizabeth A. McNamara email = lizmcnamara@dwt.com C = US O = Davis Wright Tremaine LLP
Date: 2021.02.26 09:55:57 -08'00'

Elizabeth A. McNamara
Mr.

Ms.

Firm

Davis Wright Tremaine LLP

Address

1251 Avenue of the Americas

City & State

New York, NY

Phone

212-603-6437

Mrs.

Miss

Zip 10020
Email

lizmcnamara@dwt.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Tillman J. Breckenridge
Breckenridge PLLC

